APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals
for the Fourth Circuit (August 26, 2019)....

la

Order of the United States District Court
of the Western District of North Carolina
(March 15, 2019)........................................

3a

Rehearing Order
Order of the United States Court of Appeals
for the Fourth Circuit Denying Petition
for Rehearing En Banc (November 5, 2019).... 22a

App.la
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE FOURTH CIRCUIT
(AUGUST 26, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
RICKY W. CAMPBELL,
Plain tiff-Appellan t,
v.
KEVIN McALEENAN, Acting Secretary,
Department of Homeland Security,
Defen dan t-Appellee.
No. 19-1427
Appeal from the United States District Court
for the Western District of North Carolina,
at Charlotte. Robert J. Conrad, Jr.,
District Judge. (3:17-cv-00707-RJC-DCK)
Before: KING and RICHARDSON, Circuit Judges,
and HAMILTON, Senior Circuit Judge.
PER CURIAM:
Ricky W. Campbell appeals from the district court’s
order denying relief on his employment discrimination
complaint. We have reviewed the record and find no
reversible error. Accordingly, we affirm for the reasons
stated by the district court. Campbell v. McAleenan,

App.2a
No. 3:17-cv-00707-RJC-DCK (W.D.N.C. Mar. 15, 2019).
We dispense with oral argument because the facts
and legal contentions are adequately presented in
the materials before this court and argument would
not aid the decisional process.
AFFIRMED

App.3a
ORDER OF THE UNITED STATES
DISTRICT COURT OF THE WESTERN DISTRICT
OF NORTH CAROLINA
(MARCH 15, 2019)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NORTH CAROLINA
CHARLOTTE DIVISION
RICKY CAMPBELL,
Plaintiff,
v.
KIRSTEN M. NIELSEN, SECRETARY OF
HOMELAND SECURITY,!
Defendant.
3:17-cv-707-RJ C-D CK
Before: Robert J. CONRAD, JR.,
United States District Judge.
THIS MATTER comes before the Court on Federal
Defendant’s Combined Motion to Partially Dismiss
Plaintiffs Complaint and Motion for Summary Judg1 Under Federal Rule of Civil Procedure 25(d), Secretary Nielsen
is substituted as Defendant in this action in place of former
Acting Secretary of Homeland Security Elaine C. Duke, who was
named in Plaintiffs Complaint. Secretary Nielsen’s appointment
as the leader of the U.S. Department of Homeland Security was
confirmed by the Senate on December 5, 2017.

App.4a
ment, (Doc. No. 9), and the parties’ associated briefs and
exhibits, (Doc. Nos. 10-12, 14).
I.

Background

Plaintiff Ricky W. Campbell (“Plaintiff’) is a
former employee of the Transportation Security Admin­
istration (“TSA”), which is a component agency of the
U.S. Department of Homeland Security (“DHS” or
“Defendant”). Previously, Plaintiff was employed by
TSA as a Lead Transportation Security Officer (“LTSO”)
at the Charlotte Douglas International Airport (“CLT”).
In his Complaint, Plaintiff alleges that TSA violated
Title VII by retaliating against him for engaging in
prior equal employment opportunity activities2 and by
subjecting him to a hostile work environment. Plaintiff
claims TSA retaliated against him by denying him
overtime and not selecting him for certain super2 Plaintiff bases his claims on his prior EEO activity involving
two complaints of race discrimination that he improperly filed
with the Equal Employment Opportunity Commission (“EEOC”)
in October 2010 and October 2011. See Campbell v. Burgess, et
al., No. 3:ll-cv-68, 2012 WL 3203934, at *3 (W.D.N.C. Aug. 6,
2012). Because Plaintiff was a federal employee with different
administrative remedies available to him than those available
to private citizens, the EEOC dismissed both complaints because,
as a federal employee, Plaintiff could not file complaints directly
with the EEOC before first presenting the complaints to his
employing agency through the required administrative process.
See id. After the EEOC dismissed his complaints, Plaintiff filed
a lawsuit in this Court on February 4, 2011. Id. The Court
dismissed the action on August 6, 2012 because Plaintiff “failed
to exhaust the administrative remedies available to federal
employees pursuant to 29 C.F.R. § 1614.” Id. In the instant
case, Defendant does not dispute that Plaintiffs two complaints
to the EEOC and prior lawsuit in this Court were protected
activities within the meaning of Title VII that occurred before
the personnel actions at issue in this case.

App.5a
visory positions for which he applied and was qualified.
Plaintiff claims that six specific acts were retaliatory
and/or subjected him to a hostile work environment:
1.

On or about February 4, 2012, Complainant
was not selected for the Supervisory Trans­
portation Security Officer (STSO) position
advertised via Vacancy Announcement (VA)
CLT-12-444666.

2.

On or about April 5, 2012, Complainant
was not selected for the Supervisory Trans­
portation Security Officer (STSO) position
advertised via Vacancy Announcement (VA)
CLT-12-469756.

3.

On or about August 4, 2012, Complainant
was not selected for the Supervisory Trans­
portation Security Officer (STSO) position
advertised via Vacancy Announcement (VA)
CLT-12-516492.

4.

Between August 21 and 23, 2012, Complain­
ant was denied the opportunity to work
overtime hours.

5.

On or about October 24, 2012, Complainant
was not selected for the Supervisory Trans­
portation Security Officer (STSO) position
advertised via Vacancy Announcement (VA)
CLT-12-516491.

6.

On February 22, 2013 a Transportation Secu­
rity Manager stated that the scheduled
overtime shift Complainant had worked the
previous day was “illegal”, and Complainant
was not paid for the hours he had worked.

(Doc. No. 1: Compl. at 2).

App.6a
Prior to filing this action, Plaintiff filed an EEO
complaint and litigated all six claims of retaliation in
administrative proceedings before the EEOC. On
October 5, 2012, Plaintiff initiated the administrative
complaint process by contacting an EEO counselor.
(Doc. No. 10-1: EEO Counselor’s R. at 2). Plaintiff
filed a formal administrative complaint with TSA on
December 4, 2012. (Doc. No. 10-2: Individual Compl.
of Employment Discrimination)^ After an independent
EEO investigator investigated Plaintiffs claims, the
investigator issued a report of investigation (“ROI”).
(Doc. No. 10-3: ROI). Plaintiff requested a hearing
before an EEOC Administrative Judge.
After the parties had the opportunity to conduct
full discovery, the Administrative Judge granted TSA’s
motion for summary judgment on all six of Plaintiff s
claims. (Doc. No. 10-4: Administrative Judge Decision
and Order). The Administrative Judge found that
Plaintiff could not establish a prima facie case of
retaliation regarding Claims 1 through 4 because
Plaintiff did not proffer “evidence that the relevant
decision makers were aware of his prior discrimination
complaints.” (Id. at 9-10). Regarding Claim 5, the
Administrative Judge concluded that Plaintiff could
not establish a prima facie case of reprisal “because
the record evidence shows [Plaintiff] did not apply for
an LTSO position”—the position for which Plaintiff
alleges he was not selected.” (Id. at 10). And finally,
with respect to Claim 6, the Administrative Judge
determined that “a reasonable fact finder would not
3 Initially, Plaintiff only presented claims 1-5. Plaintiff subse­
quently amended his complaint to add the sixth claim of retaliation
regarding alleged nonpayment for overtime hours on February
22, 2013.

App.7a

[find that Plaintiff could] establish the Agency retal­
iated against him” because Plaintiff had “not proffered
probative evidence showing the Agency’s legitimate
non-retaliatory reasons for its actions [were] pretext”
for retaliation. {Id. at 10-11).
Plaintiff appealed the Administrative Judge’s
order to the EEOC’s Office of Federal Operations
(“OFO”). On October 27, 2017, OFO denied the appeal
and affirmed the Administrative Judge’s order. (Doc.
No. 10-5: OFO Decision and Order). On December 6,
2017, Plaintiff timely filed this action. (Doc. No. 1:
Compl.). On March 2, 2018, Defendant filed a Combined
Motion to Partially Dismiss Plaintiff s Complaint and
Motion for Summary Judgment. (Doc. No. 10). Plaintiff
filed an untimely Response on March 23, 2018—four
days after the deadline. (Doc. No. 11).4
Defendant filed a Reply on April 2, 2018. (Doc.
No. 14). Having been fully briefed, the matter is now
ripe for adjudication.

4 The Court notes that it “need not consider” Plaintiffs Response
since it was untimely filed, and Plaintiff neither requested an
extension of the deadline nor offered any explanation for his
untimely filing. Nevertheless, the Court is mindful of the wide
latitude afforded to the pleadings of pro se litigants, and therefore,
chooses to consider Plaintiffs Response regardless of his untimely
filing. See Haines v. Kerner, 404 U.S. 519, 520 (1972) (directing
courts to “[c]onstru[e] [a pro se] petitioner’s inartful pleading
liberally”). Jordan Hydroelectric Ltd. P’ship v. 1.26 Acres, No.
09-cv-288, 2010 WL 780165, at *2 (M.D.N.C. Feb. 26, 2010) (noting
that the Court need not consider a party’s objection to a Magistrate
Judge’s report and recommendation when the objection was filed
just one day late).

App.8a

II.

Legal Standard
A. Motion to Dismiss Under Fed. R. Civ. P. 12
(b)(1)

A motion to dismiss under Rule 12(b)(1) seeks to
dismiss a complaint for lack of subject matter juris­
diction. Fed. R. Civ. P. 12(b)(1). The existence of subject
matter jurisdiction is a threshold issue the court
must address before considering the merits of the case.
Jones v. Am. Postal Workers Union, 192 F.3d 417,
422 (4th Cir. 1999). “The subject matter jurisdiction
of federal courts is limited and the federal courts
may exercise only that jurisdiction which Congress
has prescribed.” Chris v. Tenet, 221 F.3d 648, 655
(4th Cir. 2000) (citing Kokkonen v. Guardian Life
Ins. Co. of Am., 511 U.S. 375, 377 (1994)). Subject
matter jurisdiction is so limited that federal “[cjourts
have an independent obligation to determine whether
subject-matter jurisdiction exists, even when no party
challenges it.” Hertz Corp. v. Friend, 559 U.S. 77, 94
(2010) (internal citations omitted). “No party can
waive the defect, or consent to [subject matter] juris­
diction. No court can ignore the defect; rather a court,
noticing the defect, must raise the matter on its
own.” Wisconsin Dep’t of Corr. v. Schacht, 524 U.S.
381, 389 (1998) (internal citations omitted).
“In the Fourth Circuit, the exhaustion requirement
of antidiscrimination statutes functions as a jurisdic­
tional bar where a plaintiff has failed to comply with
it.” Seda v. Colvin, 2018 WL 461443, at *6 (D. Md.
Jan. 18, 2018), affd, 719 F. App’x 288 (4th Cir. 2018),
cert, denied sub nom. Seda v. Berryhill, 139 S. Ct.
214 (2018); Balas v. Huntington Ingalls Indus., Inc., 711
F.3d 401, 406 (4th Cir. 2013) (“An employee seeking

App.9a
redress for discrimination cannot file suit until she
has exhausted the administrative process.” (citing 42
U.S.C. § 2000e-5(b))). Therefore, this Court lacks sub­
ject matter jurisdiction over any Title VII claim in
which the plaintiff did not exhaust his administrative
remedies. Balas, 711 F.3d at 406-07; Melendez v.
Sebelius, 2014 WL 1292221, at *4 (D. Md. Mar. 27,
2014) (“The failure by a plaintiff to exhaust admin­
istrative remedies deprives the federal courts of sub­
ject matter jurisdiction.”). The exhaustion requirement
includes the requirement of complying with applicable
deadlines governing the EEO complaint process as
established in EEOC regulations. Green v. Brennan,
136 S. Ct. 1769, 1775-76 (2016); see also Weick v.
O’Keefe, 26 F.3d 467, 469 (4th Cir. 1994) (noting that
an aggrieved employee bears “the burden of moving
forward within an established time limit”). Generally,
when a plaintiff fails to meet these mandatory dead­
lines, he has failed to exhaust his administrative
remedies, and dismissal of his complaint is appropriate.
Lorenzo v. Rumsfeld, 456 F. Supp. 2d 731, 734 (E.D.
Va. 2006); Seda, 2018 WL 461443, at *6 (“An aggrieved
party who fails to comply with the applicable admin­
istrative procedures has failed to exhaust her admin­
istrative remedies and is generally barred from filing
suit.”).
B. Motion for Summary Judgment Under Fed.
R. Civ. P. 56
Summary judgment shall be granted “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judg­
ment as a matter of law.” Fed. R. Civ. P. 56(a). A factual
dispute is genuine “if the evidence is such that a
reasonable jury could return a verdict for the non-

App.lOa
moving party.” Anderson v. Liberty Lobby, Inc., All
U.S. 242, 248 (1986). A fact is material only if it might
affect the outcome of the suit under governing law.
Id. The movant has the “initial responsibility of
informing the district court of the basis for its mo­
tion, and identifying those portions of the pleadings,
depositions, answers to interrogatories, and admis­
sions on file, together with the affidavits, if any,
which it believes demonstrate the absence of a genuine
issue of material fact.” Celotex Corp. v. Catrett, All
U.S. 317, 323 (1986) (internal citations omitted). “The
burden on the moving party may be discharged by
‘showing’... an absence of evidence to support the
nonmoving party’s case.” Id. at 325.
Once this initial burden is met, the burden shifts
to the nonmoving party. The nonmoving party “must set
forth specific facts showing that there is a genuine
issue for trial.” Id. at 322 n.3. The nonmoving party
may not rely upon mere allegations or denials of alle­
gations in his pleadings to defeat a motion for summary
judgment. Id. at 324. The nonmoving party must pre­
sent sufficient evidence from which “a reasonable
jury could return a verdict for the nonmoving party.”
Anderson, All U.S. at 248; accord Sylvia Dev. Corp.
v. Calvert Cty., Md., 48 F.3d 810, 818 (4th Cir. 1995).
When ruling on a summary judgment motion, a
court must view the evidence and any inferences
from the evidence in the light most favorable to the
nonmoving party. Anderson, All U.S. at 255. “Where
the record taken as a whole could not lead a rational
trier of fact to find for the nonmoving party, there is
no genuine issue for trial.” Ricci v. DeStefano, 557
U.S. 557, 586 (2009) (internal citations omitted). The
mere argued existence of a factual dispute does not

App.lla

defeat an otherwise properly supported motion. Ander­
son, All U.S. at 248. If the evidence is merely colorable,
or is not significantly probative, summary judgment
is appropriate. Id. at 249-50.
III. Discussion
A. Dismissal With Prejudice of Plaintiffs
Claims 1, 2, and 5 for Lack of Subject
Matter Jurisdiction Under Fed. R. Civ. P.
12(b)(1) Is Appropriate
To seek relief from a federal court under Title VII,
Plaintiff must first comply with “rigorous adminis­
trative exhaustion requirements and time limitations”
established in EEOC regulations. Brown v. Gen.
Servs. Admin., 425 U.S. 820, 833 (1976). Under 29
C.F.R. § 1614.105(a)(1), “[a]n aggrieved person must
initiate contact with a[n] [EEO] Counselor within 45
days of the date of the matter alleged to be discrim­
inatory or, in the case of personnel action, within 45
days of the effective date of the action” alleged to have
violated Title VII. “In general, the failure to consult
with an EEO counselor within the required time
frame is grounds for dismissing an employee’s Title
VII claim.” Lorenzo, 456 F. Supp. 2d at 734 (citing
Zografov v. Veterans Admin. Med. Ctr., 779 F.2d 967,
970 (4th Cir. 1985)); see also Nealon v. Stone, 958 F.2d
584, 589 (4th Cir. 1992) (affirming dismissal of Title
VII claim because of untimely counselor contact).
Here, with respect to Plaintiffs first two claims,
Plaintiff alleges that the personnel actions which
Plaintiff complains of as violating Title VII occurred
on February 4 and April 5, 2012. (Doc. No. 1 at 2). Yet
Plaintiff waited to contact an EEO counselor regarding

App.l2a
these personnel actions until October 5, 2012. This far
exceeds the forty-five-day window for EEO contact
prescribed by the regulation for both personnel actions.5
Therefore, Plaintiff failed to comply with the manda­
tory regulatory requirement of timely counselor con­
tact—a prerequisite to bringing a Title VII suit in
this Court. Plaintiff has failed to present any evidence
that would justify this Court excusing his untimely
delay, and therefore, dismissing Claims 1 and 2 for
lack of subject matter jurisdiction is appropriate. Seda,
2018 WL 461443, at *7 (noting that the plaintiff failed
to offer “any evidence that would allow [the court] to
find that his delay was justifiable” and concluding
“that granting summary judgment [was] appropriate
on the basis of [the] plaintiffs failure to timely ex­
haust administrative remedies”).
Regarding Claim 5, Plaintiff alleges that Defend­
ant retaliated against him on or about October 24,
2012 by not selecting him for a position advertised via
Vacancy Announcement CLT-12-516491. (Doc. No. 1
at 2). Yet, later in his Complaint, Plaintiff concedes
that he “did not apply for the position.” (Id. at 9).
Accordingly, Plaintiff precludes his own retaliation
claim: because Plaintiff did not even apply for the
position, he cannot state a retaliation claim based on his
non-selection. Additionally, as noted by OFO, Plaintiff
abandoned this claim during the administrative process
by acknowledging that he did not apply for the position
(Doc. No. 10-5 at 5, 7 (“We also take note of the fact
5 In fact, the record reflects that the actual dates of the personnel
actions occurred on April 22 and June 3, 2012. Defendant gener­
ously points this out, which would put Plaintiff closer to the 45day-window, but still 167 days after the effective date of the first
action and 125 days after the effective date of the second action.

App.l3a
that claim (5) is not at issue since both parties agree
that [Plaintiff] did not apply for the relevant position.”)).
When a plaintiff abandons his EEO claim, “this Court
does not have subject matter jurisdiction.” See, e.g.,
Smeltzer v. Potter; No. 10-cv-178, 2010 WL 4818542,
at *3 (W.D.N.C. Nov. 22, 2010). Therefore, the Court
dismisses Claim 5 for lack of subject of subject matter
jurisdiction as well.
B. Summary Judgment in Favor of Defendant Is
Appropriate on Plaintiffs Claims 3, 4, and 6
Under Fed. R. Civ. P. 56
Defendant seeks summary judgment on Plaintiffs
Claims 3, 4, and 6. The Court will address each Claim
in turn.
1. Defendant Is Entitled to Summary
Judgment on Claim 3 Because Plaintiff
Cannot Show a Causal Connection
Between His Prior EEO Activity and
His Non-Selection for an STSO Position
Title VII prohibits an employer from discrim­
inating against his employee because he “has opposed
any... unlawful employment practice” under Title VII.
42 U.S.C. § 2000e—3(a). A plaintiff may prove a
retaliation claim in violation of Title VII either through
direct and indirect evidence of retaliatory animus, or
through the burden-shifting framework of McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973). Foster
v. Univ. of Maryland-E. Shore, 787 F.3d 243, 249
(4th Cir. 2015). Here, Plaintiff has offered no direct
or indirect evidence of retaliatory animus, so he must
proceed under the McDonnel-Douglas framework.
Under this framework, Plaintiff must first make a

App.l4a
prima facie case of retaliation. Foster, 787 F.3d at
250. To make a prima facie case for a retaliation claim,
Plaintiff must show that “(l) he engaged in protected
conduct; (2) an adverse action was taken against him
by [Defendant]; and (3) there was a causal connection
between the first two elements.” Ulrich v. CEXEC,
Inc., 709 F. App’x 750, 753 (4th Cir. 2017) (per
curiam). But, if Defendant offers a legitimate, nondiscriminatory reason for the action in question,
Plaintiff must prove by a preponderance of the evidence
that the proffered reason was pretextual. Id. “When
an employer gives a legitimate, nondiscriminatory
reason for discharging the plaintiff, it is not [the
court’s] province to decide whether the reason was
wise, fair, or even correct, ultimately, so long as it
truly was the reason for the plaintiffs termination.”
Laing v. Federal Exp. Corp., 703 F.3d 713, 722 (4th
Cir. 2013).
Here, Plaintiffs retaliation claim must fail because
he cannot establish the third element of a prima facie
retaliation claim—that there was a causal connection
between Plaintiff engaging in protected conduct and
Defendant taking an adverse action against him. In
Claim 3, Plaintiff alleges that he was not selected for
a promotion to an STSO position advertised via vacancy
announcement CLT-12-516492. (Doc. No. 1 at 2). Prior
to applying for this position, Plaintiff had engaged in
EEO activity—“protected activity” under Title VII.
Plaintiff claims that, although he applied and was
qualified for the STSO position, Defendant did not
select him because it knew that Plaintiff had engaged
in EEO activity. Therefore, he alleges he was not
selected for the position based on retaliatory reasons.

App.l5a
The interviewing and selection process for this
open position had three steps: (l) candidates inter­
viewed with a three-member panel, and then the panel
ranked the candidates; (2) the CLT Deputy Assistant
Federal Security Director for Screening (“DAFSD-S”)
Scott Byers reviewed the panel’s rankings and
determined which candidates should be recommended
for selection; and (3) CLT Deputy Federal Security
Director (“DFSD”) Kurt Jordan made the final selec­
tion decision. (Doc. No. 10-8: Kurt Jordan’s Aff. at 46; Doc. No. 10-7: Scott Byers’s Aff. at 9-10). The record
reflects that DFSD Jordan, the final selecting official,
did not engage in any independent decision-making
as he did not do “anything other than concur with the
recommendations presented to him.” (Doc. No. 10-4
at 9). Yet Plaintiff seems to stake his entire third
claim on the allegation that DFSD Jordan had
knowledge of his prior EEO activity. (Doc. No. 11 at
8). This is irrelevant. Because “the relevant decision
makers” were the interview panel members and
DAFSD-S Byers in his recommending capacity, they
were the only TSA employees who could potentially
have retaliated against Plaintiff. But, the undisputed
record evidence reflects that none of these TSA
officials were aware of Plaintiffs prior EEO activity
at the time they made their decisions about Plaintiff s
application. 6 In order to establish prima facie causa6 (See Doc. No. 10-6 (sworn affidavits from panel members Dalia
West, Delina McAllister, and David Spence acknowledging that
they were unaware if Plaintiff had ever engaged in prior EEO
activity); Doc. No. 10-4 at 10 (“Panel members West, McAllister,
and Spence testified they were not aware of [Plaintiff]’s prior
EEO activity. [Plaintiff] ha[s] not proffered probative evidence
rebutting their testimony.”); Doc. No. 10-7 at 18 (Recommending
Official Byers’s sworn affidavit stating that he had “no knowledge”

App.l6a
tion, there must be evidence that “the employer took
adverse action against the employee soon after
becoming aware of [the employee’s] protected activity.”
Strothers v. City ofLaurel, Md., 895 F.3d 317, 335-36
(4th Cir. 2018). Because Plaintiff has not proffered
any evidence that the relevant decisionmakers—the
interview panel and DAFSD-S Byers—were aware of
his EEO activity at the time of the selection decision,
Plaintiff cannot establish the causation element of
his retaliation claim. Thus, Plaintiffs Claim 3 fails
as a matter of law.7
2. Defendant Is Also Entitled to Summary
Judgment on Claim 4 Because Plaintiff
Cannot Establish a Causal Connection
Between His Prior EEO Activity and
Denial of the Opportunity to Work
Overtime
Similarly, Claim 4 must fail as well because
Plaintiff cannot show that the relevant decisionmakers
were aware of Plaintiffs prior EEO activity. Plaintiff
of Plaintiffs prior EEO activity); Doc. No. 10-7 at 19 (stating
specifically that Scott Byers had “no knowledge” of Plaintiffs
prior EEO activity at the time Byers made his recommendations
for the STSO position at issue); Doc. No. 10-4 at 10 (“Byers testified
[he was] not aware of [Plaintiff]’s prior EEO activity.”))
7 Additionally, the record reflects that the ten candidates
DAFSD-S Byers recommended scored higher in the interview
process than Plaintiff, who tied for fifteenth place. (Doc. No. 107 at 3, 11-13). Therefore, Plaintiffs application was not passed
on to DFSD Jordan because the interview panel and DAFSD-S
Byers considered other applicants ,cbetter qualified individuals”
based on “the merit of their experience and performance in the
interview process” than Plaintiff. (Doc. No. 10-8 at 7; Doc. No.
10-7 at 12-13).

App.l7a
bases his fourth claim on his allegation that, between
August 21 and 23, 2012, Defendant denied him the
opportunity to work overtime hours. (Doc. No. 1 at 2).
The record reflects, and Plaintiff acknowledges, that
he made his overtime request to TSA management
officials Leticia Ford and Dalia West. (Doc. No. 1 at 9;
Doc. No. 10-4 at 6): The record also demonstrates that
neither Ford nor West had any knowledge of Plaintiff s
prior EEO activity at the time they denied Plaintiff
the opportunity to work over time. (Doc. No. 1 at 9; Doc.
No. 10-4 at 11; Doc. No. 10-9; Doc. No. 10-6 at 12-16).
Thus, their decision to deny Plaintiffs request to work
overtime could not have been based on a desire to
retaliate against him for his prior EEO activity.
Although Plaintiff avers that further discovery might
reveal that Ford knew about his prior EEO activity
at the time she denied him overtime, this assertion is
unsupported and is insufficient to overcome the
undisputed record evidence that these TSA manage­
ment officials lacked knowledge of Plaintiffs prior EEO
activity. Moreover, Plaintiff already had the opportunity
to conduct full discovery during the EEOC proceedings
and did not garner any evidence showing that Ford
or West had knowledge of his EEO activity. The
Court finds that Plaintiffs wholly speculative asser­
tion—that further discovery might reveal Ford or
West had knowledge of his previous EEO activity—
inadequate to defeat summary judgment.8 Accordingly,
8 “A party opposing a properly supported motion for summary
judgment ‘may not rest upon the mere allegations or denials of
his pleading, but. . . must set forth specific facts showing that
there is a genuine issue for trial.’” Anderson, All U.S. at 248
(quoting First Nat’l Bank of Arizona v. Cities Service Co., 391
U.S. 253, 288 (1968)). “If a party could defeat summary judgment
simply by offering or speculating as to possible witness testimony

App.l8a
the Court grants summary judgment on Plaintiffs
Claim 4 because Plaintiff fails to establish the causa­
tion element of his retaliation claim.
3. Defendant Is Entitled to Summary
Judgment on Claim 6 Because Plaintiff
Cannot Demonstrate a Causal Connec­
tion Between His Prior EEO Activity
and the Refusal to Pay Him Overtime
Wages for Hours He Worked During
His Regularly Scheduled Shift
In Claim 6, Plaintiff alleges that Defendant retal­
iated against him by refusing to pay him overtime
wages for hours he worked on February 21, 2013.
(Doc. No. 1 at 2). The record reflects that despite being
scheduled for eight hours of annual leave during his
regular eight-hour shift on February 21, 2013, Plaintiff
instead clocked in to work at the beginning of his
regular shift and worked for four hours. Plaintiff
thought that he would be paid overtime wages for the
hours he worked that day since he was scheduled to
be on leave. In fact, Plaintiff believed that he would be
charged for the full eight hours of annual leave and
then paid for the four hours of work he performed at
the overtime rate. The next day, on February 22, 2013,
TSA management official Jose Padilla informed Plain­
tiff that, under TSA policy, an employee cannot be
charged leave and paid overtime wages for concurrent
hours. (Doc. No. 1 at 10). Therefore, Padilla told Plain­
tiff that Plaintiff would be charged for four hours of
at trial, then summary judgment could never be granted.”
Ateliers de la Haute-Garonne v. Broetje Automation-USA Inc.,
817 F. Supp. 2d 394, 408 (D. Del. 2011), rev’d in part on other
grounds, 717 F.3d 1351 (Fed. Cir. 2013).

App.l9a

annual leave and would receive four hours of normal
work pay. (Doc. No. 10-5 at 10).
Despite this being explicit TSA policy, Plaintiff
attempts to attribute retaliatory animus to Padilla’s
denial of paying Plaintiff overtime wages. (Doc. No. 1
at 10). Plaintiff argues that Padilla was incorrect about
TSA policy and that nothing in the agency’s policy
precluded him from being paid overtime wages. {Id).
Plaintiff is wrong. The undisputed evidence shows that
Padilla correctly interpreted and applied TSA policy.
(Doc. No. 12: TSA Handbook to Management Directive
No. 1100.55-8 at 13, § C.2.(a)(l) (“Hours worked
within [an employee’s] scheduled tour of duty are paid
at the rate of basic pay plus any applicable locality
pay.”); Doc. No. 10-10: Padilla Aff. at 3 (asserting that
no employee at CLT has ever been allowed to work
overtime while simultaneously taking annual leave
“because the payroll system does not accept” it).
Moreover, even if Padilla had incorrectly interpreted
and applied TSA policy, Plaintiff cannot proffer any
evidence that Padilla’s reliance on his own under­
standing of TSA policy was a pretext for retaliation.
Plaintiff admits that he does not know of any employee
who was ever paid overtime wages for hours worked
while also taking annual leave; therefore, Plaintiff
cannot allege or prove that he was treated differently
than anyone else. (Doc. No. 10-5 at 10). Accordingly,
the Court finds that Plaintiff has failed to present
any competent evidence demonstrating that denial of
overtime pay was retaliatory, and therefore, Defendant
is entitled to summary judgment on Claim 6.9
9 King v. Rumsfeld, 328 F.3d 145, 154 (4th Cir. 2003) (concluding
that summary judgment for the defendant was appropriate when
the plaintiff could neither rehut the legitimate, non-retaliatory

App.20a
IV. Conclusion
Accordingly, for the reasons stated above, the
Court dismisses Plaintiffs Claims 1, 2, and 5 for lack
of subject matter jurisdiction and grants summary
judgment in favor of Defendant on Plaintiffs Claims
3, 4, and 6. Therefore, Plaintiffs claims against
Defendant fail as a matter of law, and dismissal of
this action is appropriate. 10
reason for a personnel decision nor proffer evidence “sufficiently
demonstrative of retaliatory intent”); Lewis v. Gibson, 621 F.
App’x 163, 165-66 (4th Cir. 2015) (holding that summary judgment
was appropriate when plaintiff “offerted] no direct evidence of
retaliatory motive” and “presentted] nothing to suggest that the
[defendant]’s proffered basis [for the challenged personnel action]
was insincere”); see also Oliver v. Roquet, 858 F.3d 180, 195 (3d
Cir. 2017) (“Absent supporting facts that make it reasonable to
draw an inference of retaliation, . . . conclusory assertions of a
cause-and-effect relationship between specific protected activities
and a later adverse action are insufficient to plead causation.”).
10 For the first time in this litigation, Plaintiff invokes the Uni­
formed Services Employment and Reemployment Rights Act
(“USERRA”) and a Supreme Court case applying that statute,
Staub v. Proctor Hosp., 562 U.S. 411 (2011), in his responsive
briefing to Defendant’s Combined Motion to Partially Dismiss
Plaintiffs Complaint and Motion for Summary Judgment. (Doc.
No. 11 at 9, 19, 21). The Court is unsure how and why this statute
relates to Defendant’s Combined Motion, as Plaintiff has not
plead a USERRA claim in this suit, nor can he amend his
Complaint to include this cause of action by way of a response
in opposition to the Combined Motion. See, e.g., Cole v. Wells Fargo
Bank, N.A., No. 15-cv-39, 2016 WL 737943, at *4 n.9 (W.D.N.C.
Feb. 23, 2016) (“This Court cannot consider new claims raised in
a Response Brief; seeking to add claims this way is inappropriate
because it is comparable to amending the Complaint. . . without
first obtaining leave of court.”); United States ex rel. Moore v.
Cardinal Fin. Co., L.P., No. 12-cv-1824, 2017 WL 1165952, at
*13 n.22 (D. Md. Mar. 28, 2017) (noting that a plaintiff “cannot
amend his pleadings through opposition” to a motion to dismiss);

App.21a

IT IS THEREFORE ORDERED THAT:
1. Defendant’s Combined Motion to Partially Dis­
miss Plaintiffs Complaint and Motion for Summary
Judgment, (Doc. No. 10), is GRANTED. Specifically,
Plaintiffs Claims 1, 2, and 5 are DISMISSED WITH
PREJUDICE. And the Court grants summary judg­
ment in favor of Defendant on Plaintiffs Claims 3, 4,
and 6.
2. Plaintiffs Complaint, (Doc. No. l), is DIS­
MISSED; and
3. The Clerk of Court is directed to close this case.
/s/ Robert J. Conrad. Jr.
United States District Judge
Signed: March 15, 2019

Mohammed v. Daniels, 13-cv-3077, 2015 WL 470469, at *3 n.2
(E.D.N.C. Feb. 4, 2015) (“To the extent plaintiff attempts to
raise new claims in his responses to defendants’ motions to dismiss,
those claims are not properly before the court and will not be
considered.”); Barclay White Skanska, Inc. v. Battelle Mem.
Inst., 262 F. App’x 556, 563 (4th Cir. 2008) (holding that a
plaintiff cannot raise new claims not pled in the complaint in
response to a motion for summary judgment). Thus, this Court
disregards Plaintiffs arguments concerning USERRA and Staub.

App.22a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(NOVEMBER 5, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
RICKY W. CAMPBELL,
Plain tiff-Appellan t,
v.
KEVIN McALEENAN, Acting Secretary,
Department of Homeland Security,
Defendant-Appellee.
No. 19-1427
(3:17-cv-00707-RJC-DCK)
The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under
Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
Is/ Patricia S. Connor
Clerk

Blank Page

1

Supreme Court
press

